APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the Indiana Supreme Court
(March 27, 2019) . . . . . . . . . . . . . . App. 1
Appendix B Decision in the Court of Appeals of
Indiana (August 1, 2018) . . . . . . App. 19
Appendix C IC 35-46-1-4. . . . . . . . . . . . . . . . . App. 60

App. 1

APPENDIX A
IN THE
INDIANA SUPREME COURT
Supreme Court Case No. 18S-CR-604
[Filed March 27, 2019]
_______________________
Jeffrey Fairbanks,
)
Appellant (Defendant)
)
)
–v–
)
)
State of Indiana,
)
Appellee (Plaintiff)
)
_______________________ )
Argued: December 6, 2018 | Decided: March 27, 2019
Appeal from the Marion Superior Court,
No. 49G03-1508-MR-30525
The Honorable Sheila A. Carlisle, Judge
On Petition to Transfer from the Indiana Court of
Appeals, No. 49A02-1707-CR-1675
Opinion by Chief Justice Rush
Justices David, Massa, Slaughter, and Goff concur.

App. 2
Rush, Chief Justice.
In criminal cases, Indiana Evidence Rule 404(b)’s
purpose is to prevent the jury from indulging in the
“forbidden inference”—that a defendant must be guilty
of the charged crime because, on other occasions, he
acted badly. To achieve this purpose, Rule 404(b)
prohibits the State from introducing evidence of other
bad acts to show a defendant’s propensity to commit a
crime. But the Rule permits this evidence for other
purposes, including to show “lack of accident.”
Here, to prove that the death of Jeffrey Fairbanks’s
infant daughter was not an accident, the State
introduced evidence at Fairbanks’s trial that he had, on
prior occasions, used a pillow to muffle the baby’s
crying. We hold that admitting this evidence was not
improper under Rule 404(b) because the State had
“reliable assurance”—in statements Fairbanks made
before trial to police and to news outlets—that he
would raise an accident defense at trial.
And since the evidence’s prejudicial impact did not
substantially outweigh its probative value, the trial
court did not abuse its discretion in admitting the
evidence. We therefore affirm Fairbanks’s conviction
for felony neglect of a dependent resulting in death.
Facts and Procedural History
On the morning of May 28, 2015, three-month-old
Janna was asleep in a king-size bed with her father,
Jeffrey Fairbanks. Janna’s mother had left for work,
leaving the infant in Fairbanks’s care. At the time,
Janna’s half-sisters were home, too.

App. 3
One of the half-sisters, A.G., heard Janna crying
three separate times. The first time, A.G. heard Janna
cry “like a regular baby would cry.” The next two times,
though, A.G. thought the cries “sounded muffled.”
At some point in the day, Janna died, and
Fairbanks left the house with his daughter’s body
wrapped in a blanket. He returned, alone, late that
night.
Janna’s mother and half-sisters immediately asked
about the infant’s whereabouts. Fairbanks said that
Janna was dead and that he had buried her in a
cornfield. He never told them how the baby died.
The next day, police questioned Fairbanks, and he
told officers that he put Janna’s body in a dumpster.
Fairbanks admitted that, during an early morning
diaper change, he had placed a pillow over the baby to
“muffle her”—but that he took the pillow off “right
away” and that they both eventually went back to
sleep. He claimed that he later woke up, realized Janna
was “already gone,” and panicked. Fairbanks stated
that it didn’t look like he had “rolled over on” the
infant, but it was “the only thing [he] could think of”
when trying to figure out what happened.
Officers searched extensively for Janna. They never
found her body, but they did find the blanket that she
had been wrapped in.
Two media outlets then interviewed Fairbanks. In
these interviews, Fairbanks again admitted that he
had taken his daughter’s body to a dumpster. He
claimed that he had woken up in the afternoon to find
the baby limp and lifeless and that he didn’t know why.

App. 4
In response to some questions, Fairbanks said he didn’t
know much about “roll-over deaths” but that he didn’t
think he had rolled onto Janna.
The State charged Fairbanks with murder and
felony neglect of a dependent resulting in death. Before
trial, both the State and the defense brought up the
admissibility of certain evidence—including testimony
that, on previous occasions, Fairbanks had placed a
pillow over Janna. The State asserted, in its notice of
intent to use 404(b) evidence, that the pillow evidence
was admissible; but Fairbanks, in his motion in limine,
argued it was not.
During a hearing on the matter, the State argued,
in part, that it needed the pillow evidence to show that
Janna’s death wasn’t an accident, making the
testimony admissible under Indiana Evidence Rule
404(b). In response, the defense contended that the
pillow evidence was both unreliable and highly
prejudicial—but never stated that Fairbanks wasn’t
going to raise an accident defense. Ultimately, the trial
court agreed with the State’s position and denied
Fairbanks’s request to exclude the evidence.
At trial, half-sisters A.G. and E.M. testified about
the prior pillow incidents. A.G. testified that she had
seen Fairbanks put a pillow on Janna’s face “[t]wo or
three times” and that Fairbanks had said the pillow
would stop Janna’s cries, relax her, and put her to
sleep. A.G. also testified that the crying she had heard
on these prior pillow occasions was the same as the
muffled crying she heard on the day of Janna’s death.

App. 5
E.M. then testified that she had twice seen a pillow
over Janna’s face when Fairbanks was taking care of
the baby. One of the times, E.M. asked Fairbanks why
Janna had a pillow on her face, and Fairbanks
responded that the infant, who was around two months
old at the time, had maybe placed it there herself.
Also among the testifying witnesses was a
pediatrician who had previously examined Janna and
who had reviewed the baby’s medical records. She
testified extensively about Janna’s health and noted,
among other things, that Janna was a “fine, healthy
weight” at her ten-day check-up. Defense counsel
questioned the pediatrician about co-sleeping, and she
stated, “We recommend babies sleep in their own bed
and not with the parents for the concern that someone
could roll on the baby, or they could accidentally get
smothered against someone at night.”
Then, toward the end of trial, the court admitted
the two news interviews, and the jury watched both.
During closing argument, the State asserted that
Fairbanks was guilty of murder because he “smothered
Janna with a pillow,” knowingly causing her to die. The
State further argued that Fairbanks was guilty of the
neglect charge because he placed his dependent child
“in a situation that endangered her life” when he
“plac[ed] a pillow over her head” and then “went back
to sleep.”
The defense maintained that the State hadn’t
proven the charges beyond a reasonable doubt, in part
because the State did not show how Janna died. To
that end, defense counsel argued, “People sleep with

App. 6
their kids all the time. This is accidental. It’s an
accident compounded by his stupidity of what he did
with his own daughter . . . .”
The jury acquitted Fairbanks of the murder charge
but found him guilty of felony neglect of a dependent
resulting in death. The trial court sentenced him to
thirty years.
Fairbanks appealed, raising a number of
arguments—including that the evidence of prior pillow
incidents was inadmissible under Indiana Evidence
Rule 404(b). The Court of Appeals unanimously
rejected Fairbanks’s arguments and affirmed the
conviction. Fairbanks v. State, 108 N.E.3d 357, 374
(Ind. Ct. App. 2018); id. at 374–76 (Pyle, J.,
concurring).
Fairbanks petitioned for transfer, which we
granted, vacating the Court of Appeals opinion. Ind.
Appellate Rule 58(A).
Standard of Review
Here, two standards of review apply to the trial
court’s ruling on the admission of evidence. First, this
evidentiary ruling turned on a purely legal, threshold
question—whether a defendant must first affirmatively
assert an accident defense before the 404(b) lack-ofaccident exception becomes available. We thus review
that aspect of the ruling de novo. See Hirsch v. State,
697 N.E.2d 37, 40 (Ind. 1998). But to the degree the
evidentiary ruling did not raise a question of law, we
review for an abuse of discretion. See Inman v. State, 4
N.E.3d 190, 197 (Ind. 2014). Under that standard, we
reverse only when the admission is clearly against the

App. 7
logic and effect of the facts and circumstances.
Shinnock v. State, 76 N.E.3d 841, 842–43 (Ind. 2017).
Discussion and Decision
Indiana Evidence Rule 404(b) serves to safeguard
the presumption of innocence in favor of criminal
defendants. See Swain v. State, 647 N.E.2d 23, 24 (Ind.
Ct. App. 1995) (quoting Hardin v. State, 611 N.E.2d
123, 128 (Ind. 1993)), trans. denied. The Rule’s
mandate is clear: a court may not admit evidence of
another crime, wrong, or act “to prove a person’s
character in order to show that on a particular occasion
the person acted in accordance with the character.”
Ind. Evidence Rule 404(b)(1). This restriction prevents
the jury from indulging in the “forbidden inference”
that a criminal defendant’s “prior wrongful conduct
suggests present guilt.” Byers v. State, 709 N.E.2d
1024, 1026–27 (Ind. 1999).
But Rule 404(b) does not totally proscribe other-badacts evidence—only its use as character evidence.
Indeed, the Rule plainly states that other-bad-acts
evidence may be admissible for other purposes, and it
provides an illustrative list—to show “motive,
opportunity, intent, preparation, plan, knowledge,
identity, absence of mistake, or lack of accident.” Evid.
R. 404(b)(2). So when the State claims that other-badacts evidence is admissible for a proper purpose, the
trial court is tasked with deciding whether that
evidence “is relevant to a matter at issue other than
the defendant’s propensity to commit the charged act.”
Hicks v. State, 690 N.E.2d 215, 219 (Ind. 1997).

App. 8
If the evidence passes that relevance test, it has to
clear a second hurdle: Indiana Evidence Rule 403's
balancing test. In applying Rule 403, the trial court
must conclude that the evidence’s probative value is
not “substantially outweighed” by the danger of unfair
prejudice, Evid. R. 403—otherwise, the evidence is not
admissible. See Hicks, 690 N.E.2d at 223.
While the general principles underlying the
admissibility of other-bad-acts evidence have been
recited numerous times, see, e.g., id. at 221, Rule 404(b)
continues to prove difficult in application. We have
recognized as much, stating that the use of other-badacts evidence “to prove matters other than general
character has always been problematic for the courts.”
Wickizer v. State, 626 N.E.2d 795, 797 (Ind. 1993)
(quoting Gregory P. Joseph & Stephen A. Saltzburg,
Evidence in America: The Federal Rules in the States
§ 14.3, at 6 (Supp. 1992)).
This case was no exception, as it brought to light an
unsettled question regarding one of Rule 404(b)’s listed
permissible purposes—lack of accident. Specifically,
does a criminal defendant have to affirmatively raise
an accident defense before the State may introduce
other-bad-acts evidence to show the charged conduct
was not an accident? The Court of Appeals panel aptly
noted that there is “no clear-cut answer under Indiana
law” to this question. Fairbanks, 108 N.E.3d at 367–68.
After examining our precedent addressing other
Rule 404(b) exceptions—intent, plan, and motive—we
hold that lack-of-accident evidence may be admitted
only (1) when the State has “reliable assurance” that

App. 9
an accident defense will be raised or (2) after the
defendant places accident at issue at trial.1
Here, Fairbanks did not place accident at issue at
trial before the State introduced the lack-of-accident
evidence—the prior pillow incidents. But his
statements before trial to police and to the news media
gave the State “reliable assurance” that he would raise
an accident defense. The accident exception was thus
available to the State when it offered the 404(b)
evidence in question. And because that pillow
evidence’s probative value was not substantially
outweighed by its prejudicial effect under Rule 403, the
trial court did not abuse its discretion in admitting the
evidence. We thus affirm Fairbanks’s conviction for
felony neglect of a dependent resulting in death.
I.

Indiana cases addressing other Rule 404(b)
exceptions provide valuable guidance.

The parties’ arguments regarding the admissibility
of pillow evidence boil down to a matter of chronology.
While the State contends that its introduction of Rule
404(b) lack-of-accident evidence does not require the
defendant to first assert accident as a defense at trial,
Fairbanks maintains the opposite—that a criminal
defendant must raise an accident defense at trial before
lack-of-accident evidence may be admitted. Both
parties claim that this Court’s prior cases addressing
other Rule 404(b) exceptions support their respective
positions—so we examine those cases closely.
1

On all other issues, we summarily affirm the decision of the
Court of Appeals. See App. R. 58(A)(2).

App. 10
In Wickizer v. State, this Court addressed a similar
chronology argument that implicated the intent
exception of Rule 404(b). 626 N.E.2d 795 (Ind. 1993). In
that case, we first noted that a defendant’s mental
state or culpability is an element to be proven in the
vast majority of criminal cases; so, evidence of intent is
typically considered both relevant and probative. Id. at
797. But we acknowledged the dangers in construing
the intent exception too broadly. Id.
We specifically recognized that to allow other-badacts evidence to prove intent when a defendant merely
denies involvement in a crime would often produce the
“forbidden inference”—a result at odds with Rule
404(b)’s overarching purpose. Id. at 797, 799. So, we
held that Rule 404(b)’s intent exception is available
only “when a defendant goes beyond merely denying
the charged culpability and affirmatively presents a
claim of particular contrary intent.” Id. at 799. In other
words, to use the Rule 404(b) intent exception, the
State needed more than a “mere denial of involvement
in the offense”; it needed to be confronted with a
defendant’s claim that “whatever conduct he may have
engaged in, he did not possess the necessary mens rea
for the offense.” Jeffrey O. Cooper, The Continuing
Complexity of Indiana Rule of Evidence 404(b), 35 Ind.
L. Rev. 1415, 1420 (2002).
This Court in Wickizer then addressed the timing of
a defendant’s claim of particular contrary intent,
providing several examples of when the Rule 404(b)
intent exception becomes available to the State. 626
N.E.2d at 799. We first explained that the exception
becomes available when a defendant’s claim of contrary

App. 11
intent is alleged in the “opening statement, by crossexamination of the State’s witnesses, or by
presentation of his own case-in-chief.” Id.; see also
Lafayette v. State, 917 N.E.2d 660, 663 (Ind. 2009). But
we also explained that, under the facts of that
particular case, the State’s timing in using the Rule
404(b) intent exception was faulty not only because
the defendant failed to first raise contrary intent at
trial—but also because the State, when offering the
404(b) intent evidence, had no “reliable assurance” that
the defendant would affirmatively contest the issue of
intent. Wickizer, 626 N.E.2d at 800.
Questions then began to arise about the effect of
Wickizer’s holding on other Rule 404(b) exceptions.
First, in Goodner v. State, this Court dealt, in part,
with the admissibility of other-bad-acts evidence to
prove “plan.” 685 N.E.2d 1058 (Ind. 1997). We stated
that “[t]he concerns that led us in Wickizer to adopt a
narrow construction of the intent exception do not
appear applicable to evidence of acts that are part of
the ‘plan’ for the charged offense.” Id. at 1061. We
explained that our concern in Wickizer was that a
broad interpretation of the intent exception could
defeat the overarching purpose of Rule 404(b) because
“mental state is an element to be proven by the
prosecution in ‘virtually every criminal case.’” Id. at
1061 n.3 (quoting Wickizer, 626 N.E.2d at 797). In
declining to extend a Wickizer-like approach to the plan
exception, we noted that “[o]ther exceptions under
404(b) necessarily involve a different set of issues” than
intent. Id.

App. 12
Shortly after, in Hicks v. State, this Court addressed
the impact of Wickizer on Rule 404(b)’s “motive”
exception. 690 N.E.2d 215 (Ind. 1997). We again noted
that Wickizer construed the intent exception narrowly
because of the intent exception’s unique nature and the
associated likelihood of creating the “forbidden
inference.” Id. at 222 n.12. We then compared intent to
motive, noting that “[m]otive and most other collateral
issues are unlike intent”—reasoning that 404(b) motive
evidence is “less likely than intent to be relevant as a
general matter” and therefore less likely to produce the
“forbidden inference.” Id. So, we concluded that
Wickizer did not apply to the motive exception. Id.
Thus, Goodner and Hicks plainly refused to extend
Wickizer to Rule 404(b)’s plan and motive exceptions.
But what does that mean for Rule 404(b)’s lack-ofaccident exception? We address that question below,
focusing on the relationship between “lack of accident”
and “intent,” along with the reasons underlying
Wickizer’s narrow construction of the intent exception.
II.

Because “lack of accident” is a subset of
intent, Wickizer’s holding also applies to
that Rule 404(b) exception.

In Goodner and Hicks, we explained that Wickizer
did not necessarily apply to every Rule 404(b)
exception. But neither case explicitly foreclosed the
possibility that Wickizer could extend to another Rule
404(b) exception—if that exception proved sufficiently
similar to the intent exception. After all, this Court was
careful in Hicks to note that “[m]otive and most other
collateral issues are unlike intent,” 690 N.E.2d at 222

App. 13
n.12 (emphasis added)—implicitly recognizing there
may be an exception that is like intent.
And the lack-of-accident exception is just that—like
intent. In fact, jurists have described the lack-ofaccident exception as a “more specialized application of
the broader category of ‘intent.’‘’ 22B Charles Alan
Wright & Kenneth W. Graham, Jr., Federal Practice
and Procedure § 5255 (2017); see also 12 Robert Lowell
Miller, Jr., Indiana Practice, Indiana Evidence
§ 404.229 (4th ed. 2016) (stating that lack of accident
“has been said to be ‘simply a special form of the
exception that permits the use of other crimes to prove
intent’”).
That description is apt. After all, when the State
seeks to introduce other-bad-acts evidence to disprove
accident, the State wants to show the defendant had
the requisite mens rea to commit the charged act. Or
conversely, a criminal defendant claiming an act was
accidental is necessarily claiming a lack of the requisite
criminal intent.
The State acknowledges the inextricable link
between “lack of accident” and “intent,” arguing that
the other-bad-acts evidence offered in this case was
relevant to show that the victim’s “death was not
simply accidental . . . but was intentional, knowing, or
negligent.” The State’s position demonstrates that “lack
of accident” is generally relevant at a criminal trial
because a defendant’s mental state will usually be an
element to be proven.
This brings us back to Wickizer and its reasons for
construing Rule 404(b)’s intent exception narrowly. Our

App. 14
holding in Wickizer was premised on intent virtually
always being at issue in a criminal trial, thus making
Rule 404(b) intent evidence practically always relevant.
626 N.E.2d at 797. And we recognized the danger in
using other-bad-acts evidence generally to show intent:
creating the “forbidden inference” that a criminal
defendant has a criminal propensity and acted in
accordance with that character by engaging in the
charged conduct. See id. at 799.
The same danger exists with the lack-of-accident
exception. “Lack of accident” is usually relevant in any
criminal matter, since a defendant’s mens rea is almost
always at issue. And this general relevancy greatly
increases the risk of creating the “forbidden inference”
Rule 404(b) aims to prohibit. See Hicks, 690 N.E.2d at
222 n.12.
For that reason, the Wickizer approach applies to
Rule 404(b)’s lack-of-accident exception. This means
that before the State may offer other-bad-acts evidence
of lack of accident, one of two things must have
occurred: (1) the State had “reliable assurance” that an
accident defense would be raised, or (2) the defendant
placed accident at issue at trial.2
2

Caselaw interpreting Federal Rule of Evidence 404(b)’s lack-ofaccident exception reflects a similar approach. Specifically, federal
courts have sanctioned the use of 404(b) other-bad-acts evidence to
prove lack of accident only after an accident defense has been, or
is likely to be, asserted. See, e.g., United States v. Bell, 516 F.3d
432, 442 (6th Cir. 2008) (explaining that for other-bad-acts
evidence to be admissible to show lack of accident, the government
must be seeking “to prove a fact that the defendant has placed, or
conceivably will place, in issue” (quoting United States v.
Merriweather, 78 F.3d 1070, 1076 (6th Cir. 1996))); Chavez v. City

App. 15
With that chronology in mind, we now determine
whether the trial court abused its discretion in
admitting the Rule 404(b) other-bad-acts evidence to
prove lack of accident.
III.

The trial court did not abuse its discretion
in admitting the lack-of-accident evidence.

Here, the State introduced testimony that
Fairbanks at least twice placed a pillow over Janna’s
face. This other-bad-acts evidence was offered to show
that Janna’s death was not an accident but that
Fairbanks purposefully placed a pillow on Janna and
caused her death intentionally, knowingly, or
negligently. This testimony was admitted fairly early
during trial, and the record does not reveal any prior
time at trial when Fairbanks raised the issue of
accident.
The State did, however, have “reliable assurance”
that Fairbanks would raise an accident defense,
derived from his pretrial statements to police and from
his news interviews before trial. Fairbanks claimed to
police that although it did not look like he had rolled
of Albuquerque, 402 F.3d 1039, 1046 (10th Cir. 2005) (finding lackof-accident evidence inadmissible in a suit alleging excessive force
by a police officer when there was no suggestion that the police
officer accidentally used the police dog); see also Wright & Graham,
supra, at § 5255 (stating that use of the lack-of-accident exception
should be confined to cases in which “accident seems a plausible
defense”). Although we aren’t bound by these interpretations of
Federal Rule of Evidence 404(b), we are willing “to look to federal
cases interpreting the rules for guidance when we are confronted
with a similar issue.” Lewis v. State, 34 N.E.3d 240, 248 n.6 (Ind.
2015) (quoting Dowdy v. State, 672 N.E.2d 948, 951 (Ind. Ct. App.
1996), trans. denied).

App. 16
onto his infant daughter, it was the “only” thing he
could think of. And Fairbanks explained to two media
outlets that he didn’t know much about “roll-over
deaths.” Given those statements, the State had every
reason to suspect that Fairbanks would advance a
theory that Janna’s death was accidental.
And, in fact, Fairbanks did raise the issue of
accident—albeit after the Rule 404(b) pillow evidence
was introduced. Defense counsel cross-examined
Janna’s pediatrician about the dangers of co-sleeping,
which brought up the issue of roll-over deaths. And,
later, during closing argument, defense counsel
explicitly stated that Janna’s death was an accident:
“Was it unsafe? People sleep with their kids all the
time. This is accidental. It’s an accident . . . .”
Given the State’s “reliable assurance” of a
forthcoming accident defense, the trial court did not
abuse its discretion in finding that the pillow evidence
was “relevant to a matter at issue other than
[Fairbanks’s] propensity to commit the charged act.”
Hicks, 690 N.E.2d at 219. But our review does not end
there—we must still determine whether the trial court
properly found that the pillow evidence cleared Rule
403's balancing test.
There, again, the trial court did not abuse its
discretion—the prejudicial impact of the pillow
evidence did not substantially outweigh its probative
value. First, Fairbanks himself admitted in his first
statement to police that he placed a pillow on Janna to
muffle her crying on the day she died. And, second,
while the other-bad-acts evidence showed that
Fairbanks had placed a pillow over Janna’s face to stop

App. 17
her crying several times previously, none of it showed
that any physical harm had resulted. Although the
pillow evidence certainly painted Fairbanks in a bad
light, its prejudicial impact was significantly trumped
by the evidence’s highly probative value to show that
Janna’s death was not accidental—especially
considering her body was never recovered.
We thus conclude that the admission of the Rule
404(b) lack-of-accident evidence was not an abuse of
discretion.
Conclusion
Today, we hold that the State may introduce otherbad-acts evidence to show lack of accident only
(1) when the State has “reliable assurance” that an
accident defense will be raised, or (2) after the
defendant places accident at issue at trial. Here, the
State was reliably assured that Fairbanks would raise
an accident defense; therefore, it could properly
introduce the Rule 404(b) evidence. And because that
evidence’s prejudicial effect did not outweigh its
probative value, there was no abuse of discretion in
admitting it. We thus affirm Fairbanks’s conviction for
felony neglect of a dependent resulting in death.
David, Massa, Slaughter, and Goff, JJ., concur.
ATTORNEYS FOR APPELLANT
G. Allen Lidy
Lidy Law, PC
Mooresville, Indiana

App. 18
Robert E. Saint
Emswiller, Williams, Noland & Clarke, LLC
Indianapolis, Indiana
John V. Siskopoulos
Siskopoulos Law Firm, LLP
Boston, Massachusetts
ATTORNEYS FOR APPELLEE
Curtis T. Hill, Jr.
Attorney General of Indiana
Laura R. Anderson
Tyler G. Banks
Deputy Attorneys General
Indianapolis, Indiana

App. 19

APPENDIX B
IN THE
COURT OF APPEALS OF INDIANA
August 1, 2018
Court of Appeals Case No. 49A02-1707-CR-1675
Appeal from the Marion Superior Court
The Honorable Sheila A. Carlisle, Judge
Trial Court Cause No. 49G03-1508-MR-30525
____________________
Jeffrey Fairbanks,
)
Appellant-Defendant, )
)
v.
)
)
State of Indiana,
)
Appellee-Plaintiff
)
____________________ )
ATTORNEYS FOR APPELLANT ATTORNEYS FOR APPELLEE
G. Allen Lidy
Lidy Law, PC
Mooresville, Indiana

Curtis T. Hill, Jr.
Attorney General

Laura R. Anderson
John V. Siskopoulos
Deputy Attorney General
Siskopoulos Law Firm, LLP Indianapolis, Indiana
Boston, Massachusetts

App. 20
Vaidik, Chief Judge.
Case Summary
[1]

In May 2015, Jeffrey Fairbanks admitted to
police that he disposed of his three-month-old
daughter’s body in an Indianapolis dumpster.
Despite extensive search efforts, her body was
never found. The State charged Fairbanks with
murder and Level 1 felony neglect of a
dependent resulting in death. At trial, the State,
in order to prove that Janna’s death was not an
accident, presented evidence that Fairbanks had
placed a pillow on his daughter on at least four
prior occasions. The jury found Fairbanks not
guilty of the murder charge but guilty of the
neglect charge.

[2]

Fairbanks now appeals arguing, among other
things, that the evidence that he had previously
placed a pillow on his daughter was inadmissible
pursuant to Indiana Evidence Rule 404(b)’s lackof-accident purpose because he never claimed
that his daughter’s death was an accident.

[3]

Because accident is a subset of intent—that is,
a defendant who claims accident is necessarily
claiming that the act was not intentional—we
conclude that, similar to intent, defendants must
affirmatively claim accident before the State can
admit evidence pursuant to Evidence Rule
404(b) that the act was not an accident.
However, because we find that Fairbanks
claimed accident at trial and that the probative
value of the evidence is not substantially

App. 21
outweighed by the danger of unfair prejudice, we
conclude that the trial court properly admitted
the pillow evidence. Finding no merit to the
other arguments that Fairbanks raises on
appeal, we affirm his conviction for Level 1
felony neglect of a dependent resulting in death.
Facts and Procedural History
[4]

Yolanda Rivera and Fairbanks were the parents
of Janna, who was born in February 2015.
Yolanda, Fairbanks, Janna, and Yolanda’s two
other daughters—thirteen-year-old A.G. and
eleven-year-old E.M.—lived at Maison Gardens,
an apartment complex at 42nd Street and Post
Road in Indianapolis. In May 2015, they moved
to a nearby house on Candy Apple Boulevard.
Yolanda, Fairbanks, and Janna slept in the
same bedroom, sharing a king bed.

[5]

On Thursday, May 28, Yolanda woke up around
3:30 a.m. to get ready for work. Yolanda changed
three-month-old Janna’s diaper (Janna did not
wake up during the diaper change) and went to
the kitchen to prepare a bottle for her.1 Yolanda
then left Janna’s bottle on the bed for when she
woke up. When Yolanda left the house around
4:15 a.m., she told Fairbanks that she had left a
bottle ready for Janna. Yolanda also left her cell

1

Citing page 44 of the transcript (Vol. III), Fairbanks claims that
Yolanda testified that it was a “highly unusual event” for Janna
not to wake up during her diaper change. Appellant’s Br. p. 7.
Yolanda, however, did not testify to this.

App. 22
phone for Fairbanks because he had lost his cell
phone.
[6]

Fairbanks had an appointment that morning, so
A.G. and E.M. had planned to stay home from
school that day to watch Janna. However,
Fairbanks’s appointment was canceled. Around
8:00 a.m., Fairbanks woke up A.G. to let her
know that he would be home after all. A.G.
heard Janna crying around that time; she
described Janna’s crying like “a regular baby
would cry.” Tr. Vol. III p. 166. A.G. went back to
sleep and woke up for good around 11:00 a.m.
She again heard Janna crying, but this
time—unlike the crying she had heard around
8:00 a.m.—the crying sounded “muffled.” Id. at
164. A.G. went downstairs, ate breakfast, and
watched television with E.M., who had already
woken up and gone downstairs. About twenty
minutes later, A.G. went upstairs to use the
bathroom, at which point she heard Janna’s
“muffled” crying again. Id. at 166. After using
the bathroom, A.G. went back downstairs.

[7]

A little later, Fairbanks came downstairs, went
into the kitchen, and asked the girls if there
were any trash bags in the house. A.G. said she
didn’t know. After looking around, Fairbanks
went back upstairs for about five minutes and
then came back downstairs with Janna, telling
E.M. that he was going for a ride. Janna was
wrapped in a blanket with only her nose and
eyes showing. Janna’s eyes were closed, and she
was not moving or making any sounds.

App. 23
Fairbanks took Janna to his car, but he did not
use the car seat, which was still in the house.
[8]

In the meantime, Yolanda had been calling
Fairbanks several times throughout the day
using a co-worker’s cell phone, but Fairbanks
never answered. When Yolanda got off work at
1:30 p.m., she went straight home, arriving
about twenty minutes after Fairbanks had left
with Janna. See id. at 49 (Yolanda testifying
that she got home “[a]round 2:00” p.m.). Yolanda
was “alarmed” because Janna’s car seat was at
home, and Fairbanks had not taken any diapers
or milk for Janna. Id. at 48-49, 171. Yolanda
called Fairbanks several more times, but he still
did not answer. Yolanda went to Maison
Gardens (they still had keys to their old
apartment), but he wasn’t there either. Yolanda
went back home and waited.

[9]

Fairbanks finally returned home around 11:30
p.m. Yolanda and her daughters met him at his
car. Yolanda asked Fairbanks where Janna was,
and he said Janna was in the car. But when
Yolanda looked in the car she only found a box of
black trash bags. Yolanda thought this was
“strange” because they did not use black trash
bags at their house. Id. at 54. Yolanda and her
daughters followed Fairbanks inside their house,
where Yolanda continued to ask him where
Janna was. Fairbanks finally said he had buried
Janna in a cornfield and left a cross, but he
would not tell them where. As they continued
asking him more questions about Janna,

App. 24
Fairbanks’s only answer was that she was “in a
better place now.” Id. at 174.
[10]

Yolanda did not call 911 that night because she
was scared of Fairbanks. Id. at 57, 63
(Fairbanks threatening Yolanda: “Call the
police, and you’ll see what happens.”); see also
Tr. Vol. IV p. 88 (E.M. testifying that Fairbanks
was “mad” about the possibility of police being
called that night). Yolanda, however, called 911
the following morning, Friday, May 29, when
she left the house to take A.G. and E.M. to
school. Indianapolis Metropolitan Police
Department officers were dispatched to Candy
Apple a little before 9:00 a.m. Upon arrival,
officers woke up Fairbanks and asked
him—about “20 times”—where Janna was. Tr.
Vol. III p. 27. Each time Fairbanks responded
that he “didn’t know.” Id. at 27, 95. According to
the officers, Fairbanks’s demeanor was
“annoyingly calm and monotone.” Id. at 95.
Officers immediately began searching for Janna
in the neighborhood retention pond and nearby
woods.

[11]

Meanwhile, Fairbanks was taken to the police
station, where he was interviewed that
afternoon by a homicide detective and a missingpersons detective. For over an hour, Fairbanks,
who appeared “nonplussed about the whole
situation,” maintained that he didn’t know
where Janna was. Tr. Vol. IV p. 15. Fairbanks
claimed that he “never hurt [his] baby.” Exs. 25
& 25A. The officers then employed a

App. 25
“minimization” technique, whereby they
suggested that Janna died from SIDS or from
Fairbanks accidentally rolling onto her while he
was sleeping. Tr. Vol. IV pp. 20-21. Eventually,
Fairbanks admitted that when he woke up,
Janna was “already gone,” that he didn’t know
what happened to her, and that he didn’t do
anything wrong. Exs. 25 & 25A. He said he then
“panicked” and drove around with her body for
eight hours. Id. After this admission, around
5:30 p.m., the officers and Fairbanks got into a
patrol car, and Fairbanks directed them to a
dumpster at Maison Gardens, which is where he
claimed to have discarded Janna’s body. The
officers searched the dumpster, but it had
recently been emptied. The officers learned that
the dumpster contents could have been taken to
three possible landfills, and those landfills were
extensively searched by officers from several
different agencies over the next several days.
Janna’s body was never found. However, Janna’s
blanket—the one she was wrapped in when
Fairbanks left the house with her on Thursday
afternoon—was found.
[12]

In any event, after the dumpster was searched
that Friday evening, the officers and Fairbanks
returned to the police station to resume the
interview. See Exs. 26 & 26A. Fairbanks told the
officers that Janna woke up around 5:30 a.m., at
which point he changed her diaper. Fairbanks
said when he changed Janna’s diaper, he placed
a pillow over her face to “muffle her” because she
was crying; however, he claimed that he took the

App. 26
pillow off “right away” and then fed her. Id. The
officers gave Fairbanks a doll to demonstrate
how he placed the pillow on Janna. Fairbanks
said after feeding her, he and Janna stayed up
for about two-and-a-half hours before going back
to sleep. Id. Fairbanks said when he woke up
and realized that Janna was dead, he panicked
and tried to figure out what happened: “So when
I was panicking I was trying to figure out what
happened. You know, that’s the only thing I
could think of is I rolled over on her, but when I
woke up it . . . didn’t look like that [because
Janna was in the middle of the king bed and I
was on the edge].” Id. When the interview was
over, Fairbanks was free to leave.
[13]

During the following weeks, Fairbanks gave
interviews to two Indianapolis television
stations, WTHR and Fox 59. See Exs. 56 & 57.
During these interviews, Fairbanks said Janna
woke up around 5:30 a.m., at which point he
changed her, he gave her a bottle, and she went
back to sleep. Fairbanks said he stayed up until
around 8:00 a.m.; he then went back to sleep and
did not wake up again until around 1:30 p.m.
When Fairbanks picked up Janna, he said she
was limp and lifeless, her lips were blue, and he
couldn’t figure out why. He said he tried to give
Janna CPR, but he was unable to revive her. He
said he took Janna’s body out of the house
because he didn’t want Yolanda or the girls to
see her that way. When asked if he accidentally
rolled over Janna when he was sleeping, he said
he didn’t think so but he didn’t know. Ex. 57

App. 27
(6:07). Fairbanks admitted telling Yolanda that
he buried Janna’s body when he really discarded
her body in a dumpster.
[14]

On August 27, 2015—nearly three months after
Janna’s death—the State charged Fairbanks
with Count I: murder and Count II: Level 1
felony neglect of a dependent resulting in death.
The charging information for Count I alleged
that Fairbanks knowingly killed Janna. The
charging information for Count II alleged that
Fairbanks, who was at least eighteen years old,
knowingly placed Janna, a dependent who was
less than fourteen years old, in a situation that
endangered her life or health, to wit: he placed
and/or left Janna in an unsafe and/or
unsupervised environment, which resulted in
her death. Appellant’s App. Vol. II p. 17.

[15]

Before trial, the State filed a notice of intent to
admit 404(b) evidence that Fairbanks had
“plac[ed] a pillow over [Janna’s] face on at least
(2) [prior] occasions.” Id. at 88. The evidence
that the State wanted to admit was statements
from A.G. and E.M. Fairbanks filed a motion in
limine seeking to prohibit the State from
introducing such evidence, claiming that it
violated Indiana Evidence Rules 404(b) and 403.
Id. at 83. A hearing was held, and the State
argued that the pillow evidence was admissible
under Evidence Rule 404(b):
[I]n our particular case, the defendant
has stated that he didn’t know how the
baby died, the baby died, he got up, he

App. 28
put her in his car, he drove around, and
he eventually put it in a dumpster, so
that negates – that states that it’s an
accident. And he’s – I mean, he’s implying
through his actions that it was an
accident. He didn’t – you know, he denied
killing the child in his statement.
So I need to be able to combat that.
*****
I can’t prove the exact cause of death
because he’s destroyed the best piece of
evidence, and that is the body. And . . .
that’s not at argument here. He readily
admitted over and over and over that he
put the body in the dumpster.
*****
So the only way I can get to trying to
prove his mistake or his accident is to
show his actions and his relationship with
this infant. And so that’s why the State
would object . . . to these actions being
limined.
Tr. Vol. II pp. 30-31. Defense counsel responded
that A.G.’s and E.M.’s statements regarding the
prior pillow incidents were “not reliable” and
“highly prejudicial.” Id. at 40. The trial court
took the matter under advisement and later
denied Fairbanks’s motion in limine on this
issue.

App. 29
[16]

A jury trial was held in April 2017. Right before
trial started, and as the jury was about to enter
the courtroom, the trial court went over lastminute issues with the attorneys. Defense
counsel stated:
Judge, we would like to show a . . .
continuing objection to the pillow
evidence that the Court denied in . . . the
Motion in Limine. I can object, obviously,
at the time, but just wanted to show a
continuing objection to that evidence.
Tr. Vol. III p. 3. The court responded, “Okay.
Anything in response?” Id. The only response
the State had was to offer a stipulation on
another matter. As the State was discussing the
stipulation, the jury entered the courtroom.

[17]

2

During trial, Yolanda testified that she had a
normal pregnancy and that Janna was a
“healthy baby.” Id. at 36. Likewise, a
pediatrician testified that Janna was seen at her
ten-day and one-month check-ups and that she
was generally healthy (Janna was not taken to
her two-month check-up; her next check-up
would have been her four-month check-up).2

The pediatrician testified that Janna had subconjunctival
hemorrhages at her one-month checkup. According to the
pediatrician, they are “small red spots in the white part of the eye
that are kind of near the iris—they’re generally not very big—little
red spots that indicate[] burst capillaries in the eyes.” Tr. Vol. III p.
232. They are caused by “[a]nything that causes increased pressure
in the head,” such as “hitting the eye with something, or coughing
very vigorously, or vomiting, or crying very vigorously.” Id. at 233.

App. 30
[18]

A.G. and E.M. then testified about the prior
pillow incidents; however, defense counsel did
not object during their testimony. Specifically,
A.G. testified that she had seen Fairbanks put a
pillow on Janna “two or three times,” including
once at Candy Apple. Id. at 178, 180. A.G. said
Fairbanks put “a big long bed pillow” with a red
fluffy cover over Janna’s head because she was
“fussy” and “crying.” Id. at 180. Janna was in the
middle of the bed at the time. A.G. explained
that when she tried to remove the pillow,
Fairbanks got angry and told her that she didn’t
know what she was doing. Fairbanks then told
A.G. that the pillow would stop Janna from
crying and would relax her and put her to sleep.
A.G. explained that the muffled crying she heard
on Thursday, May 28 was the same crying that
she heard when Janna had a pillow over her face
on the previous occasions. Id. at 219-20.

[19]

E.M. also testified about seeing a pillow on
Janna’s face on two occasions.3 She said when
Janna was about two months old and they lived
at Maison Gardens, she came home from school
one day and saw Janna lying on the bed with a
red and white bed pillow on her face. When she
took the pillow off Janna, Janna was hot and
crying. E.M. went into the living room and asked
Fairbanks why there was a pillow on Janna’s
face. Fairbanks responded that “maybe” Janna
put it on her face. Tr. Vol. IV p. 91. E.M. then

3

Although it’s not entirely clear from the girls’ testimony, it
appears that they testified to separate incidents of seeing a pillow
on Janna’s face.

App. 31
gave Janna a bath because she was sweaty. E.M.
said she saw Janna with a pillow on her face one
other time as well. Id. at 92. Defense counsel
vigorously cross-examined A.G. and E.M.,
including why they did not initially tell police or
the forensic interviewer about the muffled cries
or the prior pillow incidents. Fairbanks did not
ask for, and the court did not give, a limiting
instruction to the jury about the prior pillow
incidents.
[20]

During closing argument, the State argued that
the evidence supported guilty verdicts for each
charge:
Fairbanks is guilty of murder. He
smothered Janna with a pillow. He
caused her to suffocate and die. And so
that means . . . the State of Indiana has
met its burden. We have met [our] burden
by proving Jeffrey Fairbanks knowingly
killed Janna . . . .
In reference to the neglect, we’ve proven
that the defendant is Jeffrey. We’ve
proven the fact that he is over 18 years of
age. [We’ve] proven that he had the care
and control of his own daughter, his own
three-month-old baby.
We’ve proven that Janna was a . . .
dependent. She was less than 14 years of
age, [she was] 3 1/2 months.
He did place her in a situation that
endangered her life. By placing a pillow

App. 32
over her head, it would be hard to say
that that wasn’t an unsafe environment.
And then he went back to sleep, left her
there. Left her like that.
He left her unsupervised because he was
sleepy, and it resulted in Janna’s death.
He just wanted to shut her up.
Any parent . . . would know not to put a
pillow over a . . . three-month-old baby’s
head.
Tr. Vol. V pp. 31-32. Defense counsel argued
that the State didn’t meet its burden of proof for
either charge:
Charging instrument—they have to prove
that he knowingly killed the child. That’s
murder. Murder.
He didn’t murder this child. He loved this
child. He didn’t neglect this child, right?
They charged unsafe or unsupervised,
right? She wasn’t unsupervised. He was
in the bed.
Now, they might get up and say well, . . .
he’d sleep . . . through her. Well, okay. I
find that interesting because if that’s the
case, if you could never go to sleep as a
parent, right, for fear that you would
unsupervise your child, then none of us
would ever sleep; right?

App. 33
She was supervised. He was in the same
room; right?
Was it unsafe? People sleep with their
kids all the time. This is accidental. It’s
an accident compounded by his stupidity
of what he did with his own daughter
(indicating). And . . . we have owned that;
right? We told you we would own it.
*****
Their theory of it’s Jeffrey’s fault because
we don’t have a body cuts both ways.
Ladies and Gentlemen, they have not
proven this case beyond all reasonable
doubt. They haven’t given you a reason to
convict Mr. Fairbanks, and you must find
him not guilty on both charges
(indicating).
Id. at 71-73.
[21]

The jury found Fairbanks not guilty of murder
but guilty of Level 1 felony neglect of a
dependent resulting in death. The trial court
sentenced Fairbanks to the advisory term of
thirty years.

[22]

Fairbanks now appeals.4

4

We held oral argument in this case on July 9, 2018. We thank
counsel for their presentations.

App. 34
Discussion and Decision
[23]

Fairbanks raises several issues on appeal, which
we restate as follows. First, Fairbanks contends
that the evidence that he had previously placed
a pillow over Janna’s face was inadmissible
pursuant to Evidence Rule 404(b). Second, he
contends that the prosecutor committed
misconduct by presenting more than one theory
to prove the neglect-of-a-dependent charge at
trial. Third, he contends that juror misconduct
occurred during trial when a juror used her
phone to research police investigations and
credibility, warranting a new trial. Finally, he
contends that the neglect-of-a-dependent statute
is void for vagueness.
I. Evidence Rule 404(b)

[24]

The State argues that Fairbanks has not
preserved the issue of whether the evidence that
he had previously placed a pillow over Janna’s
face was inadmissible pursuant to Evidence Rule
404(b) because defense counsel did not object
when A.G. and E.M. testified at trial about the
incidents. Right before trial started, and as the
jury was about ready to enter the courtroom,
defense counsel told the trial court that he
would like to show a continuing objection to the
pillow evidence. The State claims this wasn’t
good enough because the court “never granted
such request.” Appellee’s Br. pp. 20-21. This
Court addressed the proper procedure for using
continuing objections in Hayworth v. State, 904
N.E.2d 684 (Ind. Ct. App. 2009). We cautioned

App. 35
that if “the trial court does not specifically grant
the right to a continuing objection, it is counsel’s
duty to object to the evidence as it is offered in
order to preserve the issue for appeal.” Id. at
692. Here, when defense counsel said he would
like to show a continuing objection to the pillow
evidence, the trial court said, “Okay,” and asked
the State if it had a response. Tr. Vol. III p. 3.
The State’s only response was to offer a
stipulation on another matter. As the State was
discussing the stipulation, the jury entered the
courtroom. We find that the trial court’s
response was sufficient to preserve this issue for
appeal.
[25]

5

Proceeding to the merits, Evidence Rule 404(b)
provides that evidence of a crime, wrong, or
other act “is not admissible to prove a person’s
character in order to show that on a particular
occasion the person acted in accordance with the
character,” but it “may be admissible for another
purpose, such as proving motive, opportunity,
intent, preparation, plan, knowledge, identity,
absence of mistake, or lack of accident.”5
Evidence Rule 403 provides, in turn, that
evidence, even if relevant, should be excluded “if
its probative value is substantially outweighed
by a danger of one or more of the following:
unfair prejudice, confusing the issues,
misleading the jury, undue delay, or needlessly
presenting cumulative evidence.” Therefore,

Evidence Rule 404(b) previously referenced “absence of mistake
or accident.” The rule was amended effective January 1, 2014, to
separately reference “absence of mistake, or lack of accident.”

App. 36
when the State seeks to use evidence of a crime,
wrong, or other act, the court must (1) determine
whether the evidence is relevant to a matter at
issue other than the defendant’s propensity to
commit the charged act and, if so, (2) balance the
probative value of the evidence against its
prejudicial effect. Hicks v. State, 690 N.E.2d 215,
221 (Ind. 1997). We review a trial court’s ruling
for an abuse of discretion. Spencer v. State, 703
N.E.2d 1053, 1057 (Ind. 1999).
[26]

At trial, the State sought to use evidence of the
prior pillow incidents to prove that Janna’s
death was not an accident. But Fairbanks
highlights that he has never claimed that
Janna’s death was an accident; rather, he has
consistently maintained that he doesn’t know
how she died. See Tr. Vol. V pp. 82-83 (State
acknowledging during closing argument that
Fairbanks never said how Janna died).
Fairbanks argues that evidence of a crime,
wrong, or other act is admissible to prove lack of
accident only if the defendant first claims
accident. The State responds that “[c]ontrary to
[Fairbanks’s] argument, a defendant does not
need to affirmatively advance a contrary claim of
accident prior to the State’s introduction of prior
bad act evidence.” Appellee’s Br. p. 21. The State
asserts that “lack of accident” is not like
“intent,” which is only available when a
defendant goes beyond merely denying the
charged culpability and affirmatively presents a
claim of particular contrary intent. See Wickizer
v. State, 626 N.E.2d 795, 799 (Ind. 1993).

App. 37
[27]

An accused can be said to have raised a claim of
particular contrary intent through pretrial
statements to police, opening statement, crossexamination of the State’s witnesses, or evidence
in the defendant’s case in chief. Lafayette v.
State, 917 N.E.2d 660, 663 (Ind. 2009); 12 Robert
L. Miller, Indiana Practice, Indiana Evidence,
§ 404.214 (4th ed. 2016). Absence of mistake and
lack of accident have been described as a more
specialized application of the broader category of
intent. See 22B Charles Alan Wright, Federal
Practice and Procedure, § 5255 (2d ed. 2014); see
also Wages v. State, 863 N.E.2d 408, 412 (Ind.
Ct. App. 2007) (explaining that absence of
mistake and lack of accident have been
described as “simply a special form of the
exception that permits the use of other crimes to
prove intent” (quotations omitted)), reh’g denied,
trans. denied. Although the Indiana Supreme
Court has held that the concerns that led them
in Wickizer to adopt a narrow construction of the
intent purpose do not apply to all of the 404(b)
purposes, Hicks, 690 N.E.2d at 222 n.12;
Goodner v. State, 685 N.E.2d 1058, 1061 (Ind.
1997), the Court “has not stated definitively
whether [this] approach applies when the
prosecution seeks to offer extrinsic act evidence
to prove an intermediate inference (such as . . .
absence of mistake or accident) leading to an
ultimate inference of intent,” 12 Miller,
§ 404.214 (emphasis added).

[28]

In short, there is no clear-cut answer under
Indiana law whether a defendant must

App. 38
affirmatively claim mistake or accident before
the State can admit evidence pursuant to
Evidence Rule 404(b) that the act was not a
mistake or accident. This Court recognized as
much in Wages: “It is unclear whether, under
the ‘absence of mistake or accident’ prong of
Rule 404(b), the defendant must first
affirmatively claim that he or she did something
mistakenly or accidentally before the State can
invoke that prong to introduce evidence of other
wrongs.” 863 N.E.2d at 412 n.3 (citing McCloud
v. State, 697 N.E.2d 96 (Ind. Ct. App. 1998)).
According to the Indiana Practice, the absenceof-mistake and lack-of-accident purposes apply
“most frequently when the defendant asserts
a set of facts explaining the charged conduct as
accidental or based on a mistake.” 12 Miller,
§ 404.229 (emphasis added). Indeed, a survey of
the cases where evidence has been admitted
pursuant to Evidence Rule 404(b)’s absence-ofmistake and lack-of-accident purposes reveals
that, in the vast majority of the cases, the
defendant has affirmatively claimed that the act
was a mistake or accident. See Scalissi v. State,
759 N.E.2d 618, 623 (Ind. 2001) (holding that
evidence that the defendant had raped the
victim’s companion was admissible under lack of
accident to rebut the defendant’s claim that he
accidentally shot the victim); Clemens v. State,
610 N.E.2d 236, 242 (Ind. 1993) (“The purpose
specified above, to show the absence of mistake
or accident, seems tailor-made to allow the
admission of evidence of [the defendant’s] abuse
of Jordan to rebut his claim that accidental

App. 39
injuries were the cause of the other twin’s
death.”), reh’g denied; Iqbal v. State, 805 N.E.2d
401, 408 (Ind. Ct. App. 2004) (holding that
evidence of the defendant’s violence toward the
victim was admissible under lack of accident to
combat the defendant’s claim that “[t]he gun
went off by itself”); Craun v. State, 762 N.E.2d
230, 237 (Ind. Ct. App. 2002) (holding that
evidence that the defendant had allegedly
molested other girls was not admissible under
lack of accident because the defendant “never
stated that he touched [the victim’s] vagina,
either accidentally or intentionally”), trans.
denied; Brown v. State, 684 N.E.2d 529, 535-36
(Ind. Ct. App. 1997) (holding that other incidents
of ghost employment were admissible under lack
of accident to rebut the defendant’s claim that
his conduct was the result of youth and
inexperience), trans. denied; Brown v. State, 659
N.E.2d 652, 655-56 (Ind. Ct. App. 1995) (holding
that evidence that the defendant had previously
battered the victim was admissible under lack of
accident to combat the defendant’s claim that
the shooting was “an accident”), trans. denied;
but see Nicholson v. State, 963 N.E.2d 1096,
1100 (Ind. 2012) (holding that the defendant’s
2006 voyeurism conviction involving the victims
was admissible in his newest trial involving the
same victims in order to prove “absence of
mistake” because it showed that he knew “the
exact home he was targeting [and] . . . that he
was not dialing a random number but the same
phone number he dialed in 2006” even though it
does not appear from the opinion that defendant

App. 40
made such claims at trial). Indeed, the State
conceded at oral argument that it had not found
a case where the State admitted evidence under
Evidence Rule 404(b) that the act was not a
mistake or accident when the defendant had not
made such a claim.6 Oral Arg. Video at 34:00.
We thus find that accident and mistake are a
subset of intent, in that a defendant who claims
mistake or accident is necessarily claiming that
the act was not intentional. Accordingly, we
conclude that, similar to intent, defendants must
affirmatively claim mistake or accident before
the State can admit evidence pursuant to
Evidence Rule 404(b) that the act was not a
mistake or accident.
[29]

6

As for whether Fairbanks affirmatively claimed
accident during his pretrial statements to police,
opening statement, cross-examination of the
State’s witnesses, or evidence in the defendant’s
case in chief, we note that Fairbanks got very
close to the line several times when he said he
didn’t know what happened to Janna and that
he didn’t do anything wrong. Fairbanks told
police during his interview that when he
realized that Janna was dead, he panicked and
tried to think through what could have
happened. He then explained that the “only”
thing he could think of was that he “rolled over

We disagree with the State’s argument that Stettler v. State, 70
N.E.3d 874 (Ind. Ct. App. 2017), trans. denied, stands for the
proposition that a defendant does not need to affirmatively claim
mistake or accident before the State can admit evidence that the
act was not a mistake or accident.

App. 41
on her,” but it didn’t look like he did given their
positions in the bed when he woke up. The State
argues that Fairbanks then crossed that line
during his WTHR interview, which was
admitted into evidence at trial. See Oral Arg.
Video at 35:30. During that interview, Fairbanks
was asked why he discarded his daughter’s body
in the dumpster. Fairbanks responded that “you
never know what you are going to do when you
are faced with the loss of a loved one that’s that
close to you.” Ex. 56 (8:09). Fairbanks said he
might have reacted differently if he “had known
why” Janna died. Id. (8:18). He then explained
that at that point in time, he really didn’t know
much about “SIDS,” “roll-over deaths,” and “all
the things that can happen.” Id. (8:23).
[30]

In addition, defense counsel cross-examined the
pediatrician about the dangers of co-sleeping.
The pediatrician testified that it was important
not to co-sleep because “someone could roll on
the baby, or they could accidentally get
smothered against someone at night.” Tr. Vol. IV
p. 5. When asked if she was aware that Janna
was co-sleeping with her parents, the
pediatrician said no and highlighted that
Yolanda had told the medical assistant at both
of Janna’s appointments that Janna slept in her
own bed. While this is not overwhelming
evidence that Fairbanks affirmatively claimed
accident, it is sufficient. If there was any doubt
whether Fairbanks claimed accident during
trial, that doubt was extinguished when defense
counsel argued during closing that what

App. 42
happened to Janna was, in fact, an “accident.” In
particular, defense counsel argued: “Was it
unsafe? People sleep with their kids all the time.
This is accidental. It’s an accident compounded
by [Fairbanks’s] stupidity [of discarding Janna’s
body in a dumpster].” Tr. Vol. V p. 72.
[31]

The prejudicial effect of the pillow evidence does
not substantially outweigh its probative value.
See Hicks, 690 N.E.2d at 221, 223. This is so
because Fairbanks himself admitted putting a
pillow (albeit briefly) on Janna to muffle her on
the day that she died. In addition, the prior
pillow incidents that the girls testified about did
not result in physical harm to Janna, as the
pillow was removed. Accordingly, we find that
the pillow evidence was admissible under
Evidence Rule 404(b)’s lack-of-accident purpose.

[32]

But even if we found that the pillow evidence
was not admissible under Evidence Rule 404(b)’s
lack-of-accident purpose and that the trial court
therefore erred by admitting it, the error was
harmless. An error is harmless when it results
in no prejudice to the “substantial rights” of a
party. Durden v. State, 99 N.E.3d 645, 652 (Ind.
2018). The basic premise of the harmless-error
rule “holds that a conviction may stand when
the error had no bearing on the outcome of the
case.” Id. To determine whether an error in the
introduction of evidence affected the defendant’s
substantial rights, we assess the probable
impact of that evidence upon the jury
considering all the other evidence that was

App. 43
properly presented. Blount v. State, 22 N.E.3d
559, 564 (Ind. 2014). If we are satisfied that the
conviction is supported by independent evidence
of guilt such that there is no substantial
likelihood that the challenged evidence
contributed to the verdict, the error is harmless.
Id.
[33]

7

Here, there is substantial independent evidence
that Fairbanks knowingly placed Janna in a
situation that endangered her life or health (by
placing and/or leaving Janna in an unsafe and/or
unsupervised environment), resulting in her
death. Appellant’s App. Vol. II p. 17. Fairbanks
was alone with Janna in the bedroom from 4:15
a.m. to 1:30 p.m. Fairbanks admitted putting a
pillow on Janna while he changed her diaper
because she was crying.7 When Fairbanks
briefly woke up A.G. around 8 a.m. to tell her
that he would be home that day after all, A.G.
heard Janna’s regular cries. Fairbanks then
went back to sleep (sharing a bed with Janna)
and didn’t wake up again until 1:30 p.m. When
A.G. woke up for good around 11 a.m. (which is
when Fairbanks claimed to have been sleeping),
she heard Janna’s muffled cries. About twenty
minutes later, A.G. heard Janna’s muffled cries
again when she went upstairs to use the

Fairbanks emphasizes that he only admitted briefly placing a
pillow on Janna. The State responds that the jury was free to
choose what portions of Fairbanks’s statements to believe and that
the jury could have disbelieved Fairbanks when he said he
removed the pillow “right away” and instead found that Fairbanks
left the pillow on her.

App. 44
bathroom. When Fairbanks woke up at 1:30
p.m., Janna was limp and lifeless and her lips
were blue. Fairbanks drove around with Janna’s
body for several hours and eventually discarded
her body in a dumpster. Throughout the day,
Fairbanks avoided Yolanda’s phone calls, and
when he finally returned home around 11:30
p.m., he told Yolanda and the girls that he had
buried Janna’s body in a cornfield (but he
wouldn’t tell them where). Notably, Fairbanks
did not want police called that night and
threatened Yolanda. When police came to their
house the next morning, Fairbanks claimed that
he didn’t know where Janna was. And during
the first part of his interview with police,
Fairbanks continued to claim that he didn’t
know where Janna was. By the time Fairbanks
directed police to the dumpster, it had been
emptied, and Janna’s body was never found. A
reasonable inference from this evidence is that
Fairbanks knowingly placed Janna in a
situation that endangered her life or health,
resulting in her death. Given this evidence, we
are convinced that the jury would have reached
the same result even if it had not learned about
the prior pillow incidents.8
8

Fairbanks also challenges his conviction on the ground that the
State presented insufficient evidence. Given our conclusion that
the unchallenged evidence was strong enough to render harmless
any 404(b) error, we need not separately address the sufficiency
argument.
On a related note, Fairbanks argues that the State committed
prosecutorial misconduct because “[t]he prosecution’s

App. 45
II. Prosecutorial Misconduct
[34]

Fairbanks next contends that the prosecutor
committed misconduct by presenting more than
one theory to prove the neglect-of-a-dependent
charge at trial. When reviewing a claim for
prosecutorial misconduct that has been properly
preserved, we determine “(1) whether the
prosecutor engaged in misconduct, and if so,
(2) whether the misconduct, under all of the
circumstances, placed the defendant in a
position of grave peril to which he or she would
not have been subjected otherwise.” Ryan v.
State, 9 N.E.3d 663, 667 (Ind. 2014), reh’g
denied. To properly preserve a claim of
prosecutorial misconduct, the defense must, at
the time of the alleged misconduct, raise a
contemporaneous objection and request an
admonishment; if the admonishment is not
given or is insufficient to cure the error, the
defense must request a mistrial. Thomas v.
State, 9 N.E.3d 737, 742 (Ind. Ct. App. 2014).
Failure to preserve a claim of prosecutorial
misconduct results in waiver of the issue on
appeal. Ryan, 9 N.E.3d at 667.

[35]

To be successful on such a claim, the defendant
must establish the grounds for prosecutorial

unreasonable, distorted theory that he placed a pillow over his
child to get some more sleep is not a reasonable inference from the
record, but rather a concocted claim by the prosecution to underpin
a conviction based on speculation.” Appellant’s Br. p. 28. This,
however, is merely a rephrasing of Fairbanks’s sufficiency
argument. Given our conclusion that the evidence is sufficient to
support Fairbanks’s conviction, this argument fails.

App. 46
misconduct and that the alleged misconduct was
so prejudicial that the trial court committed
fundamental error by failing to sua sponte
declare a mistrial. Id. at 667-68. Fundamental
error is “an extremely narrow exception” to the
waiver rule. Id. at 668. “[T]he defendant faces
the heavy burden of showing that the alleged
errors are so prejudicial to the defendant’s rights
as to make a fair trial impossible.” Id.
(quotations omitted). Stated another way, to
prevail under our fundamental-error analysis,
the defendant must show that “under the
circumstances the trial judge erred in not sua
sponte raising the issue because [the] alleged
errors (a) constitute clearly blatant violations of
basic and elementary principles of due process
and (b) present an undeniable and substantial
potential for harm.” Id. (quotations omitted). We
review the alleged misconduct and all relevant
information given to the jury to determine
whether the alleged misconduct “had such an
undeniable and substantial effect on the jury’s
decision that a fair trial was impossible.” Id.
(emphasis omitted).
[36]

Fairbanks claims that the State engaged in
misconduct by confusing the jury as to its theory
for the neglect-of-a-dependent charge. Fairbanks
notes that during opening statement the State
argued that he did not “seek[] help” for Janna
and left her “unsupervised” and “for dead.” Tr.
Vol. III p. 16 (State arguing that Fairbanks
“drove by a fire station multiple times” and
“didn’t go to the hospital”). However, Fairbanks

App. 47
notes that during closing argument, the State
argued that he killed Janna by placing a pillow
over her head and leaving the pillow on her
while he slept. Fairbanks raised this argument
in a motion for judgment on the evidence but did
not ask for a mistrial based on prosecutorial
misconduct. See Tr. Vol. V pp. 6-7 (“The State’s
theory on opening was pretty clear, that he
failed to render assistance for the child. That is
a completely contrary theory to the charge that
we are now here for, that the Defense was on
notice of. . . . Even if they were advancing the
theory that they charged, there is a complete
lack of evidence to support the claim for which
they’ve charged. And so for those reasons, we’re
moving for a judgment on the evidence . . . .”).
The trial court denied Fairbanks’s motion for
judgment on the evidence because the neglect
charging information generally aligned with the
State’s pillow theory and there was “enough
evidence” to present that count as charged to the
jury. Id. at 7-8. That is, the charging information
alleged that Fairbanks, who was at least
eighteen years old, knowingly placed Janna, a
dependent who was less than fourteen years old,
in a situation that endangered her life or health
(by placing and/or leaving Janna in an unsafe
and/or unsupervised environment), which
resulted in her death. Appellant’s App. Vol. II p.
17. The jury was instructed on this as well. See
id. at 241, 243-44. Even assuming that the State
alleged a different theory in its opening
statement than it presented during closing, the
theory that the State submitted to the jury at

App. 48
the end of the case aligned with the charging
information and is supported by the evidence
presented at trial. And there is no rule that
prevents the State from presenting the jury with
alternate ways to find the defendant guilty as to
one element. See Baker v. State, 948 N.E.2d
1169, 1175 (Ind. 2011) (jury-unanimity case),
reh’g denied. Accordingly, Fairbanks has not
proven that the alleged misconduct was so
prejudicial that the trial court committed
fundamental error by failing to sua sponte
declare a mistrial.9
III. Jury Taint
[37]

9

Fairbanks next contends that juror misconduct
occurred during trial when a juror used her
phone to research police investigations and
credibility, warranting a new trial under the
Indiana Supreme Court’s decision in Ramirez v.
State, 7 N.E.3d 933 (Ind. 2014). An impartial
jury is the cornerstone of a fair trial, guaranteed
by the Sixth Amendment of the United States
Constitution and Article 1, Section 13 of the
Indiana Constitution. Id. at 936. To preserve
impartiality and prevent taint, we prohibit
unauthorized contacts and communications with
jurors. Id. “Yet no trial is perfect, and we have

Fairbanks also claims that the State engaged in misconduct by
violating the “rules of evidence” during its questioning of A.G. (by
using leading questions) and during its questioning of E.M. (by
using hearsay). Although Fairbanks objected at trial, he did so on
evidentiary grounds and did not request a mistrial based on
prosecutorial misconduct. Neither of these instances amounts to
prosecutorial misconduct.

App. 49
long held that ‘[w]hile courts have a duty to
ensure an impartial jury . . . jurors need not be
absolutely insulated from all extraneous
influences . . . .’” Id. (quoting Lindsey v. State,
260 Ind. 351, 295 N.E.2d 819, 823 (1973)). We
therefore entrust trial courts with the difficult
responsibility of discerning when extraneous
influences become irreparable taint warranting
a new trial. Id.
[38]

Our Supreme Court clarified in Ramirez the
procedure trials courts are to follow in handling
instances of juror misconduct. Defendants
seeking a mistrial for suspected jury taint are
entitled to the presumption of prejudice only
after making two showings, by a preponderance
of the evidence: (1) extra-judicial contact or
communications between jurors and
unauthorized persons occurred and (2) the
contact or communications pertained to the
matter before the jury. Id. at 939. The burden
then shifts to the State to rebut this
presumption of prejudice by showing that any
contact or communications were harmless. Id. If
the State does not rebut the presumption, the
trial court must grant a new trial. Id.

[39]

Here, during trial, defense counsel notified the
court that his law clerk, who was a certified
intern, overheard a juror “playing something on
[her] phone about police investigations or
credibility or something.” Tr. Vol. III p. 80. The
juror was alone in the hallway outside the
courtroom at the time. The prosecutor also saw

App. 50
the juror in the hallway—which the prosecutor
thought was “shocking” since the witnesses were
out there as well, id. at 81—but the prosecutor
did not hear the juror playing anything on her
phone. According to defense counsel, “There
wasn’t anything specifically about Mr.
Fairbanks or this case. [My law clerk] has
indicated it sounded more like . . . a YouTube
video that . . . you would go to, a how-to or
something.” Id. When the court asked defense
counsel if he wanted the court to address the
matter with the juror, defense counsel expressed
reluctance. That is, defense counsel believed
that his law clerk was the only one who heard
this, and he appeared to be concerned about the
consequences to the defense if the juror was
questioned but then remained on the panel. Id.
at 82. Again, the court asked defense counsel
exactly what he was requesting. Defense counsel
responded:
[Defense Counsel]: Judge, I – I’m not
making a formal request at the time, just
bringing that to the Court’s attention.
[Trial Court]: Okay. Well, the Court is
willing to address it with the juror if the
Defense wants. But I’ve just heard one
reason why it sounds like you don’t want
that to occur. But I don’t want anything
unclear in this record. Do you want me to
address it with this juror?

App. 51
[Defense Counsel]: Not at this time,
unless something else comes up, Judge.
Id. at 83-84.
[40]

Fairbanks is not entitled to relief under
Ramirez. Ramirez applies only “whenever
[d]efendants seek[] a mistrial for suspected jury
taint.” Wahl v. State, 51 N.E.3d 113, 116 (Ind.
2016), reh’g denied; see also Ramirez, 7 N.E.3d
at 940 (“Once defendants move for mistrial,
trial courts should assess whether or not there is
enough evidence to meet the two-part
showing . . . .” (emphasis added)). Fairbanks,
however, did not seek a mistrial. Cf. Bisard v.
State, 26 N.E.3d 1060, 1067-68 (Ind. Ct. App.
2015) (the defendant moved for mistrial upon
learning that a juror had performed an internet
search on the reliability of blood tests; we
affirmed the trial court’s remedy of replacing the
juror with an alternate as opposed to the more
extreme remedy of declaring a mistrial), trans.
denied.

[41]

Moreover, Fairbanks rejected the trial court’s
offer to question the juror. He thus invited any
error relating to the court’s failure to question
the juror. See Durden, 99 N.E.3d at 656 (finding
that the defendant invited the structural error of
the trial court’s constitutionally defective
procedure for removing and replacing a juror
after deliberations had begun by expressly
declining “any caveats” or special instructions
for the jury and repeatedly assuring the court of
his approval of the procedure employed, despite

App. 52
its defects). Fairbanks is not entitled to a new
trial based on juror misconduct.
IV. Constitutionality of Neglect Statute
[42]

Last, Fairbanks contends that the neglect-of-adependent statute is “unconstitutionally void for
vagueness.” Appellant’s Br. p. 31. Fairbanks,
however, did not make this constitutional
challenge below by way of a motion to dismiss;
accordingly, the State argues that he has waived
this argument. But because appellate courts
have the discretion to consider constitutional
challenges even when the defendant has failed
to file such a motion, see McBride v. State, 94
N.E.3d 703, 709-710 (Ind. Ct. App. 2018) (citing
cases), we address Fairbanks’s argument.

[43]

A challenge to the validity of a statute must
overcome a presumption that the statute is
constitutional. Brown v. State, 868 N.E.2d 464,
467 (Ind. 2007).

[44]

Due-process principles provide that a penal
statute is void for vagueness if it does not clearly
define its prohibitions. Id. A criminal statute
may be invalidated for vagueness for two
reasons: (1) for failing to provide notice enabling
ordinary people to understand the conduct that
it prohibits or (2) for the possibility that it
authorizes or encourages arbitrary or
discriminatory enforcement. Id. “[T]here must be
something in a criminal statute to indicate
where the line is to be drawn between trivial
and substantial things so that erratic arrests

App. 53
and convictions for trivial acts and omissions
will not occur. It cannot be left to juries, judges,
and prosecutors to draw such lines.” Id.
(quotation omitted). A statute “is not void for
vagueness if individuals of ordinary intelligence
could comprehend it to the extent that it would
fairly inform them of the generally proscribed
conduct.” Id. (quotation omitted). And the
statute does not have to list specifically all items
of prohibited conduct; rather, it must inform the
individual of the conduct generally proscribed.
Id. The examination of a vagueness challenge is
performed in light of the facts and circumstances
of each individual case. Id.
[45]

Fairbanks challenges the following portion of the
neglect statute: “places the dependent in a
situation that endangers the dependent’s life or
health.” I.C. § 35-46-1-4(a)(1). He argues:
The prosecution argued that sleeping fits
the statutory definition of neglect.
Specifically, the prosecution argued: “So
the child is not supervised for hours. Just
because he’s in the room—if he’s asleep,
he can’t supervise.” Tr. Vol. V, p. 8.
Clearly, the prosecution’s argument that
a parent can be prosecuted for sleeping
attempts to criminalize normal behavior.
The statute provides that the mere
presence of an adult when a minor dies
results in a criminal act. This is far too
liberal of a standard for the basis of any
statute in the criminal code.

App. 54
Appellant’s Br. p. 32. But Fairbanks’s starting
premise is wrong; the State did not argue that
it’s a crime for a parent to sleep. Rather, the
State argued that Fairbanks placed Janna in an
unsafe environment by placing a pillow on her
and then going to sleep while he left the pillow
on her:
In reference to the neglect count, we have
proven that the defendant placed
Janna . . . in an unsafe environment. The
unsafe environment is that at around
eight o’clock in the morning, . . . we
believe he placed a pillow over her head,
and somewhere along the line, he went
back to sleep. And he, in his own
testimony . . ., he says he doesn’t wake up
until 1:30. So the child is not supervised
for hours. Just because he’s in the
room—if he’s asleep, he can’t supervise.
Tr. Vol. V pp. 7-8. In short, this is the difference
between putting an infant to sleep in a safe
environment and then going to sleep versus
putting an infant to sleep in an unsafe
environment and then going to sleep. Only one
of these can be considered neglectful. There is no
merit to Fairbanks’s constitutional challenge to
the neglect statute.
[46]

Affirmed.
Barnes, Sr. J., concurs.
Pyle, J., concurs in result with separate opinion.

App. 55
Pyle, Judge, concurring in result with opinion.
[47]

I concur with my colleagues’ decision to affirm
Fairbanks’ conviction for neglect of a dependent
resulting in death. However, my journey to our
decision takes a short, but important, detour
regarding whether Fairbanks properly preserved
a request for a continuing objection as an issue
for appeal. My review of the record reveals that
the motion for a continuing objection was made,
but the trial court never ruled on the motion. As
a result, I believe the issue was waived.

[48]

Continuing objections serve a useful purpose.
“That is, they avoid the futility and waste of
time inherent in requiring repetition of the same
unsuccessful objection each time evidence of a
given character is offered.” Hayworth v. State,
904 N.E.2d 684, 692 (Ind. Ct. App. 2009). As my
colleagues ably point out, the procedure for
requesting a continuing objection has been
established, and “must be carefully followed if
attorneys wish to use continuing objections and
still properly preserve the admission of specific
evidence as an issue on appeal.” Id. (emphasis
added). First, the attorney objecting to the
proffered evidence must ask that the trial court
“consider the same objection to be made and
overruled each time a class of evidence is
offered.” Id. The trial court may grant or deny
the attorney’s request. Generally, a party must
make an objection and receive a ruling to each
and every piece of evidence believed to be
inadmissible. Id. However, a continuing

App. 56
objection is an exception. Id. If the trial court
grants the request for a continuing objection,
then the attorney “does not have to object each
time the class of evidence is subsequently
offered.” Id. “If, however, the trial court does not
specifically grant the right to a continuing
objection, it is counsel’s duty to object to the
evidence as it is offered in order to preserve the
issue for appeal.” Id. (emphasis added); see also
Ind. Evid. R. 103(b) (“Once the court rules
definitively on the record at trial a party need
not renew an objection or offer proof to preserve
a claim of error for appeal.”) (emphasis added).
“Error can only be predicated on questions
presented to and ruled upon by the trial court.”
Wells v. State, 441 N.E.2d 458, 463 (Ind. 1982)
(emphasis added).
[49]

In considering whether the trial court
specifically granted Fairbanks’ request for a
continuing objection, it is helpful to reproduce
the colloquy surrounding the request:
[Defense Counsel]:
I think the only other issue we had is we
would – just to make our record clean, we
would move to incorporate the hearings –
the hearing and the subsequent ruling by
the Court on 3/29 and the Court’s order
from April 13, 2017.
As well as the parties agree to stipulation
– two stipulations, I believe. One is just a
matter of law, that the State and Defense

App. 57
have gotten together and redacted several
portions of defendant’s statements. And
we agree on those redactions.
We subsequently agreed that as a matter
of law, that doesn’t open the door – the
State can’t open the door itself to the
matters decided by the Court, specifically
the 404(b) and 401, 403 issues that the
Court decided in its order on 4/13.
And finally, Judge, we would like to show
a continuing – continuing objection to the
pillow evidence that the Court denied in
3(G)(2) of the Motion in Limine. I can
object, obviously, at the time, but just
wanted to show a continuing objection to
that evidence.
The Court:
Okay. Anything in response?
[Deputy Prosecutor]:
I just have this – the stipulation that the
defense wanted us to do. It’s a stipulation
to a matter of law, so it’s not to be read to
the jury. It’s in reference to the
redactions. They’re going to get
transcripts. We’ve agreed that they get
the transcripts and will be watching the
video. But, of course, the transcripts have
huge amounts of blacked out parts. And
so –

App. 58
(Jury returned into open court at 1:01
p.m.)
The Court:
Welcome back. If you’d all remain
standing with me, the jurors that is.
Everyone else in the courtroom may be
seated.
Now that you’ve been selected to serve as
our jury, I need to give you the oath to
serve. If you’d all raise your right hands.
(Oath administered to jury)
Tr. Vol. III pp. 2-4. The trial proceeded without
the trial court ruling on the request for a
continuing objection. I do not believe the trial
court’s utterance of the word “Okay” was in any
way related to a ruling on the motion. The trial
court was simply acknowledging the request had
been made, it sought a response from the State,
and was interrupted by the entry of the jury into
the courtroom before it could make a ruling. As
a result, the issue was neither ruled upon nor
preserved for appeal.
[50]

Nevertheless, we may still consider this issue if
Fairbanks can show that the admission of the
testimony regarding the prior pillow incidents
amounted to fundamental error. “The
fundamental error doctrine is an exception to
the general rule that the failure to object at trial
constitutes a procedural default precluding
consideration of an issue on appeal.” Jewell v.

App. 59
State, 887 N.E.2d 939, 940 n.1 (Ind. 2008). Our
supreme court has noted that on rare occasions,
we may use the fundamental error doctrine “to
address on direct appeal an otherwise
procedurally defaulted claim. But fundamental
error is extremely narrow and available only
when the record reveals a clearly blatant
violation of basic and elementary principles,
where the harm or potential for harm cannot be
denied, and which violation is so prejudicial to
the rights of the defendant as to make a fair
trial impossible.” Id. at 942.
[51]

For the reasons expressed by my colleagues
above, I do not believe Fairbanks has shown that
the admission of the pillow evidence constitutes
fundamental error. As a result, I rejoin my
colleagues and concur in the reasoning and
holding as to all other issues.

App. 60

APPENDIX C
IC 35-46-1-4
35-46-1-4 Neglect of a dependent; child selling
Effective: July 1, 2019
Sec. 4. (a) A person having the care of a dependent,
whether assumed voluntarily or because of a legal
obligation, who knowingly or intentionally:
(1) places the dependent in a situation that
endangers the dependent’s life or health;
(2) abandons or cruelly confines the dependent;
(3) deprives the dependent of necessary support; or
(4) deprives the dependent of education as required
by law;
commits neglect of a dependent, a Level 6 felony.
(b) However, the offense is:
(1) a Level 5 felony if it is committed under
subsection (a)(1), (a)(2), or (a)(3) and:
(A) results in bodily injury; or
(B) is:
(i) committed in a location where a person is
violating IC 35-48-4-1 (dealing in cocaine or
a narcotic drug), IC 35-48-4-1.1 (dealing in

App. 61
methamphetamine), or IC 35-48-4-1.2
(manufacturing methamphetamine); or
(ii) the result of a violation of IC 35-48-4-1
(dealing in cocaine or a narcotic drug), IC
35-48-4-1.1 (dealing in methamphetamine),
or IC 35-48-4-1.2 (manufacturing
methamphetamine);
(2) a Level 3 felony if it is committed under
subsection (a)(1), (a)(2), or (a)(3) and results in
serious bodily injury;
(3) a Level 1 felony if it is committed under
subsection (a)(1), (a)(2), or (a)(3) by a person at least
eighteen (18) years of age and results in the death
or catastrophic injury of a dependent who is less
than fourteen (14) years of age or in the death or
catastrophic injury of a dependent of any age who
has a mental or physical disability; and
(4) a Level 5 felony if it is committed under
subsection (a)(2) and consists of cruel confinement
or abandonment that:
(A) deprives a dependent of necessary food,
water, or sanitary facilities;
(B) consists of confinement in an area not
intended for human habitation; or
(C) involves the unlawful use of handcuffs, a
rope, a cord, tape, or a similar device to
physically restrain a dependent.

App. 62
(c) It is a defense to a prosecution based on an alleged
act under this section that:
(1) the accused person left a dependent child who
was, at the time the alleged act occurred, not more
than thirty (30) days of age:
(A) in a newborn safety device described in IC
31-34-2.5-1(a)(1)(B), IC 31-34-2.5-1(a)(1)(C), or
IC 31-34-2.5-1(a)(1)(D); or
(B) with a person who is an emergency medical
services provider (as defined in IC 16-41-10-1) who
took custody of the child under IC 31-34-2.5;
when the prosecution is based solely on the alleged act
of leaving the child in the newborn safety device or
with the emergency medical services provider and the
alleged act did not result in bodily injury or serious
bodily injury to the child; or
(2) the accused person, in the legitimate practice of
the accused person’s religious belief, provided
treatment by spiritual means through prayer, in
lieu of medical care, to the accused person’s
dependent.
(d) Except for property transferred or received:
(1) under a court order made in connection with a
proceeding under IC 31-15, IC 31-16, IC 31-17, or IC
31-35 (or IC 31-1-11.5 or IC 31-6-5 before their
repeal); or

App. 63
(2) under section 9(d) of this chapter;
a person who transfers or receives any property in
consideration for the termination of the care, custody,
or control of a person’s dependent child commits child
selling, a Level 6 felony.

